CERTIFICATE OF SERVICE

I, Matthew Ness, on this 8th day of February, 2021, do hereby certify that I
am serving three (3) copies of the within Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania in the manner indicated below which service
satisfies the requirements of Supreme Court of the United State Rule 29:

Service by First Class Mail addressed as follows:
Michael Wayne Streily, Esquire
Allegheny County District Attorney’s Office
Allegheny County Courthouse #401
436 Grant Street
Pittsburgh, PA 15219
(412) 350-4377

Dated: February 8, 2021

_/s/Matthew Ness__________
Matthew Ness
Counsel for Petitioner
PA. I.D. No. 208026

Worgul, Sarna & Ness
Criminal Defense Attorneys, LLC
429 Fourth Avenue,
Pittsburgh, PA 15219
(412) 862-0347

